           Smithsonian Institution
           Office of the Inspector General


          In Brief                   Smithsonian Institution Information Security Program
                                     Report Number A-11-05, May 15, 2012

                                                                                                                 


Why We Did This Audit               What We Found

The Federal Information             We determined that during the past year, the Office of the Chief
Security Management Act of          Information Officer (OCIO) made improvements to strengthen the
2002 (FISMA) directs the            information security program, including proactively reviewing security
Office of the Inspector General     controls and identifying areas to enhance the program. As part of its
to annually evaluate the            ongoing security program, the Smithsonian periodically performs network
information security program        and system scans and annually provides security assessments and/or
of the entity. The Smithsonian      authorizations for all major systems, consistent with NIST guidance.
voluntarily complies with
FISMA requirements because it       However, additional work is still needed to ensure controls are in place and
is consistent with its strategic    operating effectively. We found weaknesses in four areas where OCIO did
goals. We hired an                  not do the following:
independent auditor to
conduct this review on our             	 Maintain evidence that software changes were tested and approved
behalf.                                   before the changes were implemented;
Background                             	 Provide timely updates to its Technical Security Notes, hence the
                                          units did not always adhere to the employee separation process
The goal of information                   concerning the disabling or termination of user accounts;
security is to build a defensible
enterprise that enables
organizations to harness               	 Enforce the requirement that units submit quarterly monitoring
technological innovation, while           reports; and
protecting an organization’s
information and information            	 Implement security patches in a timely manner.
systems.
                                    We also noted that OCIO has not completed addressing 12 information
FISMA requires organizations        security recommendations from previous reports. By not implementing
to adopt a risk-based, life cycle   these recommendations, the Smithsonian’s IT infrastructure and systems
approach to improving               may be more vulnerable to unauthorized modifications and access, as well
information security that           as the unavailability of important resources.
includes annual security
program reviews, independent        What We Recommended
evaluations by the Office of the
Inspector General, and              We made nine recommendations to strengthen configuration change
reporting to the Office of          controls; improve user account management; enforce requirements for
Management and Budget               continuous monitoring reports; and strengthen patch management and
(OMB) and the Congress.             flaw remediation.
FISMA, OMB and the National
Institute of Standards and          Management concurred with our findings and recommendations and has
Technology (NIST) also              proposed corrective actions that, if timely implemented, will resolve the
identify security requirements      recommendations.
for federal information security
programs.                           For additional information, contact the Office of the Inspector General at
                                    (202) 633-7050 or visit http://www.si.edu/oig.
  SMITHSONIAN INSTITUTION


FEDERAL INFORMATION SECURITY 

   MANAGEMENT ACT (FISMA) 


2011 INDEPENDENT EVALUATION

           REPORT 

This page intentionally left blank
                                  REPORT ON FISCAL YEAR 2011

                        Independent Evaluation of the Smithsonian Institution’s 

                                    Information Security Program 



                                              TABLE OF CONTENTS



PURPOSE....................................................................................................................... 1 


BACKGROUND .............................................................................................................. 1 


OBJECTIVES, SCOPE, AND METHODOLOGY ............................................................. 2 


DETAIL OF RESULTS .................................................................................................... 3 


    I. 	 Configuration Change Control Needs to Be Strengthened ................................... 4 

    II. User Account Management Needs Improvement ................................................. 6 

    III. Smithsonian Units are not Consistently Submitting Quarterly Monitoring 

         and POA&M Reports ............................................................................................ 8 

    IV. 	Patch Management / Flaw Remediation Controls Need to be Strengthened for 

         Servers and Desktop Workstations ...................................................................... 9 


STATUS OF PRIOR YEARS FINDINGS AND RECOMMENDATIONS ........................ 11 


MANAGEMENT RESPONSE ........................................................................................ 17 

This page intentionally left blank
                            REPORT ON FISCAL YEAR 2011

                  Independent Evaluation of the Smithsonian Institution’s 

                              Information Security Program 


On behalf of the Office of the Inspector General (OIG), CliftonLarsonAllen (CLA) conducted an
independent evaluation of the Smithsonian’s information security management program and
practices consistent with Title III of the 2002 E-Government Act, also known as the Federal
Information Security Management Act (FISMA).

PURPOSE

The E-Government Act of 2002 (Pub. L. No. 107-347), which includes Title III, the Federal
Information Security Management Act of 2002 (FISMA), was enacted to strengthen the security
of federal government information systems.

The Smithsonian is not subject to the E-Government Act of 2002, nor is subject to the OMB
guidelines implementing the Act and the E-Government Act Section 208 guidance as it relates
to the Privacy Act of 1974. However, it is the Smithsonian’s practice to secure its information
consistent with the available resources and provisions of the two statutes as well as OMB
guidelines.

FISMA outlines federal information security compliance criteria, including the requirement for an
annual independent assessment by the Inspector General. This report presents the results of
the Smithsonian’s Office of the Inspector General (OIG) annual evaluation of the information
security controls implemented by the Smithsonian, based on the work performed by
CliftonLarsonAllen LLP.

The privacy provisions of the E-Government Act require federal organizations to ensure
sufficient protections for the privacy of personal information as federal organizations implement
citizen-centered electronic Government. Federal organizations are directed to conduct reviews
of how information about individuals is handled within their agency when they use information
technology (IT) to collect new information, or when federal organizations develop or buy new IT
systems to handle collections of personally identifiable information. Federal organizations are
also directed to describe how the government handles information that individuals provide
electronically, so that the American public has assurances that personal information is
protected.

BACKGROUND

The goal of information security is to build a defensible enterprise that enables organizations to
harness technological innovation, while protecting an organization’s information and information
systems. To maximize the timeliness and integrity of security-related information, the collection
of data should be a by-product of existing continuous monitoring processes.

FISMA requires organizations to adopt a risk-based, life cycle approach to improving
information security that includes annual security program reviews, independent evaluations by
the OIG, and reporting to the Office of Management and Budget and the Congress. FISMA,
OMB and the National Institute of Standards and Technology (NIST) also identify security
requirements for federal information security programs. These include:

   •	 Security assessments conducted as part of an information system security authorization
      or re-authorization process; and
   •	 Continuous monitoring activities, to include testing and evaluating the information


                                                1

                           REPORT ON FISCAL YEAR 2011

                 Independent Evaluation of the Smithsonian Institution’s 

                             Information Security Program 


       system as part of the ongoing system development life cycle process (provided that the
       testing and evaluation results are current and relevant to the determination of security
       control effectiveness).

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this evaluation were to assess the effectiveness of the Smithsonian’s
information security program and practices and to determine compliance with FISMA
requirements and the Smithsonian’s security policies, procedures, standards, and guidelines.

On behalf of the OIG, CliftonLarsonAllen LLP performed an independent evaluation of the
Smithsonian’s information security management program. We conducted this evaluation in
accordance with Government Auditing Standards, July 2007 Revision, as amended,
promulgated by the Comptroller General of the United States. Those standards require that we
plan and perform an audit to obtain sufficient, appropriate evidence that provides a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence we obtained provides a reasonable basis for our findings and conclusions based on
our objectives.

We followed a work plan based on the National Institute of Standards and Technology (NIST)
Special Publication (SP) 800-53, Revision 3, Recommended Security Controls for Federal
Information Systems; NIST SP 800-37, Guide for the Security Certification and Accreditation of
Federal Information Systems; NIST SP 800-53A, Revision 1, Guide for Assessing the Security
Controls in Federal Information Systems; NIST Federal Information Processing Standard (FIPS)
199, Standards for Security Categorization of Federal Information and Information Systems; and
our general controls review methodology.

Our procedures included performing security reviews of the Smithsonian’s information
technology (IT) infrastructure and major systems, and reviewing the Smithsonian’s Plans of
Action and Milestones (POA&Ms). We also based our audit on detailed interviews with the
Office of the Chief Information Officer’s (OCIO) personnel and major system owners or
sponsors. CLA developed a three year audit rotation plan in consultation with the OIG to review
the Smithsonian’s seventeen major systems. We evaluated the following subset of six major
systems in FY 2011, which includes one contractor operated system:

   •   Web Time & Attendance (WebTA)
   •   Smithsonian Tracking and Applicant Referral System (MGS STARS)
   •   OFEO Facilities Management System (FMS)
   •   Smithsonian Network (SINet)— the Smithsonian’s general support system
   •   Smithsonian Online Academic Appointment System (SOLAA)
   •   Art Collection Information System (ARTCIS)
We performed these procedures to test (1) the implementation of a Smithsonian-wide security
program, and (2) operational and technical controls specific to each system such as service
continuity, logical access, and change controls. Additionally, we evaluated management’s
actions completed through September 30, 2011, to address prior years’ recommendations.

We also evaluated the Smithsonian’s privacy program, interviewed the Senior Privacy Officer
(SPO) and reviewed prior years’ privacy program recommendations.


                                              2

                            REPORT ON FISCAL YEAR 2011

                  Independent Evaluation of the Smithsonian Institution’s 

                              Information Security Program 


We performed our review from October 7, 2011, through November 18, 2011, at Smithsonian’s
Office of the Inspector General in Washington, D.C. the Office of the Chief Information Officer at
the Smithsonian data center.

Smithsonian’s management and staff were helpful and accommodating throughout this review
and assisted us in refining the recommendations. This independent evaluation was prepared
based on information available as of October 31, 2011.

DETAIL OF RESULTS

Our audit of the Smithsonian’s security management program and practices determined that
during the past year, OCIO made improvements to strengthen the information security program,
including proactively reviewing security controls and identifying areas to enhance the program.
As part of its ongoing security program, the Smithsonian periodically performs network and
system scans and annually provides security assessments and/or authorizations for all major
systems, consistent with NIST's guidance.

However, additional work is still needed to ensure controls are in place and operating
effectively. We found weaknesses in FY 2011 in the following four areas where OCIO did not
do the following:

   	 Maintain evidence that software changes were tested and approved before the changes
      were implemented;

   	 Provide timely updates to its Technical Security Notes, hence the units did not always
      adhere to the employee separation process concerning the disabling or termination of
      user accounts;

   	 Enforce the requirement that units submit quarterly monitoring reports; and

   	 Implement security patches in a timely manner.

Management concurred with our findings and recommendations and has proposed corrective
actions that will resolve the recommendations. Management’s full response is attached to this
report.

We also noted that 17 prior years’ information security recommendations were closed in
FY 2011 and 12 prior years’ information security recommendations directed to OCIO remain
open, including four recommendations from the FY 2010 FISMA report. The following is a list of
some of the more important open recommendations from prior year reports:

   	 Re-assess the security categorization for major systems currently categorized as low-
      impact systems, based on the type of PII stored in the system. The systems should
      either be re-classified as moderate or the security categorization revised to include
      adequate justification for classifying the system as low.

   	 Ensure that all major and minor systems are addressed in system security plans in
      accordance with OMB and NIST guidelines. OCIO should ensure controls over major


                                                3

                            REPORT ON FISCAL YEAR 2011

                  Independent Evaluation of the Smithsonian Institution’s 

                              Information Security Program 


       and minor systems are identified, documented, and implemented based on their impact
       on the Smithsonian or sensitivity of data they process or store.

   	 Establish procedures to ensure existing policies requiring the use of standard baselines
      are implemented and enforced.

   	 Implement controls to ensure that all SI-owned laptops/mobile devices that may be used
      to store sensitive information are secured with an appropriate encryption technology.

We also noted that one privacy program recommendation was closed in FY 2011, and 8 prior
year privacy program related recommendations remain open from the FY 2008 Privacy Program
Evaluation report. This FY 2008 report recommended that the Smithsonian develop, document,
and implement privacy policies and procedures to support an overall privacy program that
adequately addresses privacy-related risks. Without comprehensive privacy policies and
procedures in place, the Smithsonian is at greater risk for inappropriately handling or disclosing
sensitive PII. In addition, the lack of clear privacy policies or procedures for describing and
defining sensitive PII, and how sensitive PII should be handled, greatly increases the likelihood
that individuals who come into contact with sensitive PII will handle it inappropriately.

The Smithsonian needs to make greater progress in implementing important information
security and privacy recommendations from prior reports.

The Status of Prior-Years’ Findings and Recommendations table, included in this report,
documents the details for 20 open recommendations. One recommendation is as many as five
years old. By not implementing these recommendations the Smithsonian’s IT infrastructure and
systems may be more vulnerable to unauthorized modifications and access, as well as the
unavailability of important resources.

The Smithsonian continues to make progress on implementing recommendations from previous
reports, including:

   	 Updating all major systems security plans and clarifying security assessment
      boundaries.

   	 After field work for this audit was completed, OCIO documented, justified, and formally
      accepted deviations from the Federal Desktop Core Configuration (FDCC) settings.
The following is a more detailed discussion of the four new control weaknesses identified above
that we found in our FY 2011 FISMA evaluation, as well as recommendations for strengthening
management controls over the Smithsonian’s information security program. We present our
findings in the order of greatest risk to the Smithsonian.

I. 	 Configuration Change Control Needs to be Strengthened

Controls were not operating effectively to ensure that software changes were tested and
approved before being migrated into the production environment. The Change Control Board
(CCB) did not maintain documentation for the testing/approval of software changes.

The CCB did not have evidence for changes selected for review, including software upgrades,
firewall changes, and server replacements. Missing documentation included the following:

                                                4

                            REPORT ON FISCAL YEAR 2011

                  Independent Evaluation of the Smithsonian Institution’s 

                              Information Security Program 



    	 None of the eight tickets tested had any evidence that testing was approved; and

    	 Management has not developed a process to consistently document evidence of testing
       of changes.

Information systems are typically in a constant state of change as organizations add new
capabilities, correct software flaws, address security threats, and for other valid reasons. To
ensure that these necessary changes do not introduce new vulnerabilities or adversely affect
the operation of the system, NIST recommends that organizations adopt a well-defined
configuration management process that includes testing and approval of the changes.

Specifically, NIST SP 800-53 Revision 3, Recommended Security Controls for Federal
Information Systems and Organizations, CM-3, provides the following characteristics of a well-
defined change control process:

       (1) The organization:
           a) Determines the types of changes to the information system that were
                configuration controlled;
           b) Approves configuration-controlled changes to the system with explicit
                consideration for security impact analyses;
           c) Documents approved configuration-controlled changes to the system;
           d) Retains and reviews records of configuration-controlled changes to the system;
           e) 	 Audits activities associated with configuration-controlled changes to the system;
                and
           f) 	 Coordinates and provides oversight for configuration change control activities
                through the Change Control Board that convenes [frequency] [organization-
                defined configuration change conditions].

       (2) The organization tests, validates, and documents changes to the information system
           before implementing the changes on the operational system.

The Smithsonian defined its configuration change control process in its Technical Standards
and Guidelines as follows:

       Moderate and High Impact systems must meet the following requirements:
       The Unit’s IT System Manager or Major System Sponsor must document and control
       major changes to the Unit’s major information system. The Technical Review Board
       must approve significant changes, and the Change Control Board should be requested
       to approve all changes in which the production system will be taken off-line. The Unit’s IT
       System Manager or Major System Sponsor may approve minor changes.

       Configuration change control involves the systematic proposal, justification,
       test/evaluation, review, and disposition of proposed changes. The Unit’s IT System
       Manager or Major System Sponsor must include emergency changes in the
       configuration change control process.1

1
 SI Technical Standards and Guidelines (TSG) IT-930-02 Security Controls Manual, Section
3.5.3 Configuration Change Control (CM-3)

                                                5

                            REPORT ON FISCAL YEAR 2011

                  Independent Evaluation of the Smithsonian Institution’s 

                              Information Security Program 



The lack of evidence that OCIO is ensuring changes are tested as part of the change control
process could increase risks to system availability and integrity. OCIO’s CCB needs to ensure
adequate documentation of changes and approvals to the Smithsonian systems in order to
prevent any unauthorized or inappropriate modification of the operating environment.


Recommendation:


    1. 	We recommend that the Chief Information Officer (CIO) establish and implement
        additional Change Control Board (CCB) procedures, which more clearly document the
        types of changes that are required to undergo testing prior to being moved into the
        production environment, or that the CCB would accept any residual risk.


II. 	 User Account Management Needs Improvement

Controls were not operating effectively to ensure that access to the Smithsonian’s information
technology resources was adequately controlled. Specifically, the process for documenting the
termination of access for employees and contractors was not properly followed and/or enforced.
We noted that the documentation for termination of access (i.e. the HEAT 2 ticket) was not
available for eight out of twenty-four separated employees and contractors. No evidence was
available to determine whether access was disabled or terminated promptly upon notification.

TSG IT-930-02 “Security Control Manual” required that inactive accounts be disabled after 90
days. The Security Program Procedures IT-930-TN04, “Disabling and Deleting Dormant
Accounts,” was out-of-date and was not in compliance with the overarching SI Security Policy.
TN04 indicated that inactive accounts will be disabled after 30 days and needs to be updated to
be consistent with the Security Control Manual. According to the CIO, after we completed our
fieldwork, OCIO published an update for IT-930-TN04 and began the process of updating IT-
930-02 to address this issue.

The appropriate organization officials for the Art Collection Information System (ARTCIS)3 and
the Smithsonian Online Academic Appointment System (SOLAA) 4 were not submitting the
proper access request forms. Hence, System Sponsors did not consistently enforce the access
request process across all units.

According to OCIO management, limited personnel resources have hindered timely updates to
the Smithsonian’s Technical Notes on security. The Smithsonian’s employee separation
process was not always adhered to by appropriate organization officials. In addition, ARTCIS

2
  HEAT is a commercial helpdesk issue management software suite.
3
  ARTCIS is based on The Museum System (TMS) and serves the internal collections management
needs of ten of the Smithsonian’s museums. ARTCIS provides the public with easy access to more than
600,000 works of art.
4
  SOLAA is an automated system for processing internships, fellowships and other academic
appointments. The mission of the SOLAA system is to provide one common portal and process to accept
academic appointment applications from the public and provide management of the applications by each
unit.

                                                 6

                              REPORT ON FISCAL YEAR 2011

                    Independent Evaluation of the Smithsonian Institution’s 

                                Information Security Program 


and SOLAA System Sponsors need to implement the Smithsonian’s formal access request
procedures.

User account management procedures are implemented to ensure that only authorized users
have access to an organization’s resources. When an employee or contractor leaves an
organization or no longer has a need to access an organization’s resources, their access
privileges should be revoked. The Smithsonian’s Technical Standards and Guidelines assign
responsibility for user account management to system administrators. System administrators
are responsible for:

      	 reviewing accounts once every 30 days to identify accounts that have been inactive for
         90 days;
      	 disabling accounts that have been inactive for 90 days;
      	 notifying their unit manager that the account has been disabled;
      	 deleting after another 90 days (for a total of 180 days of inactivity). 5

Technical Note, IT-960-TN-12, “Active Directory Account and Password Requests,” dated
September 18, 2007, states: In order to adhere to the procedures in this technical note, all IT
support staff that provision and maintain Active Directory accounts must use OCIO’s supported
HEAT system.

Terminated employees or contractors may retain access and transferred employees may have
access to resources to which they are not entitled. Inadequate user account management
procedures exposes the Smithsonian’s IT resources to potential unauthorized access, data loss,
and data manipulation.

In his response to this report, the CIO stated that OCIO has implemented improvements in the
exit clearance process to ensure separated employee and contractor access to the Smithsonian
network is terminated according to existing policies.

Recommendations:

To strengthen user account management, we recommend that the Chief Information Officer:

      2. 	 Ensure that Technical Note, IT-930-TN04, Disabling and Deleting Dormant Accounts”
           aligns with TSG IT-930-02, Security Controls Manual.

      3. E
         	 nforce the termination process for employees and contractors leaving the
         Smithsonian and ensure that the OCIO Help Desk removes separated employees and
         contractors’ access to SINet in accordance with Smithsonian policies and procedures.


We recommend that the Systems Sponsor for ARTCIS:

      4. 	Develop and implement formal access request procedures to ensure that access is
          properly documented and approved to adequately enforce the principle of “least
          privilege”.

5
    IT-930-02, Security Controls Manual, version 3.5, Dormant Accounts.

                                                7

                               REPORT ON FISCAL YEAR 2011

                     Independent Evaluation of the Smithsonian Institution’s 

                                 Information Security Program 



We recommend that the Systems Sponsor for SOLAA:

      5. 	Develop and implement formal access request procedures to ensure that access is
          properly documented and approved to adequately enforce the principle of “least
          privilege”.


III. Smithsonian Units Are not Consistently Submitting Quarterly Monitoring and POA&M
     Reports

Management controls were not operating effectively to ensure all of the major system points of
contact were providing periodic monitoring and POA&M reports to OCIO and that reasonable
remediation dates were being met for resolving and/or correcting security weaknesses.

According to NIST, organizations demonstrate adequate due diligence by continuously
monitoring security controls to ensure that they continue to be effective in light of changes to
information systems and their operating environment that inevitably occur. OCIO has a
monitoring process that tracks POA&Ms and compliance reporting. 6 Several information
systems’ Points of Contact did not consistently provide evidence of quarterly monitoring reports7
to OCIO. Also, we noted several instances where POA&M remediation dates were delayed.

According to OCIO, limited system resources have delayed the correction and resolution of
POA&Ms.

The Smithsonian has defined continuous monitoring activities in its Technical Standards and
Guidelines:

          Continuous monitoring activities include configuration management and controls of
          information system components, security impact analyses of changes to the system,
          ongoing assessment of security controls, and status reporting. The Smithsonian has
          established as a baseline a minimum selection of items for control monitoring. Each AIS
          or Unit may also select additional subsets of the security controls for purposes of
          continuous monitoring. Reports that are required for baseline monitoring are found in
          Appendix D.8

The Smithsonian has assigned responsibility for implementing POA&Ms to correct weaknesses
in its IT systems in the following technical note:

          The Unit Director is responsible for ensuring that an individual is assigned to manage
          applicable program POA&Ms for their unit and that the assigned person is responsible
          for ensuring planned tasks are completed.




6
    NIST Special Publication 800-37, Appendix G. 

7
 The quarterly reports are specified in Technical Notes TN02 and TN04. 

8
 SI Technical Standards and Guidelines (TSG) IT-930-02 Security Controls Manual, version 

3.5, dated February 2011, section 3.4.7 Continuous Monitoring (CA-7).


                                                     8

                              REPORT ON FISCAL YEAR 2011

                    Independent Evaluation of the Smithsonian Institution’s 

                                Information Security Program 


          The Unit IT Director or the OIG-designated recipient of the original report is responsible
          for identifying evidence to justify closure of the program audit recommendation.9

Preparing continuous monitoring reports helps to ensure that system sponsors effectively
manage their systems. POA&M reports help management to ensure that weaknesses in IT
systems are addressed in a timely manner. Without these reports, OCIO cannot ensure that
system sponsors are following the Smithsonian policies and managing their systems
effectively.

Recommendations:

To enforce the OCIO’s requirements for quarterly reporting, we recommend that the CIO:

      6. 	 Ensure that continuous monitoring of major systems is operating effectively, and that
           the major system POCs, provide reports on quarterly monitoring and reporting to the
           OCIO Security Program on account management activities and audit log reviews.

      7. 	Ensure the major system POCs provide quarterly POA&M progress updates to the
          OCIO Security Program, and notify the CIO and Unit Directors when the system or
          program POA&M scheduled completion dates are not being met.


IV. Patch Management / Flaw Remediation Controls need to be Strengthened for Servers
    and Desktop Workstations

Controls were not operating effectively to ensure that security patches were implemented on
Smithsonian computers (Servers and desktop workstations) in a timely manner.

From a targeted sample of 110 desktop workstations, we successfully tested 71 terminals to
determine the version of the installed software. Some of these workstations were using outdated
software that may no longer be supported by the vendor, or for which security updates may no
longer be available. Approximately 70% of the targets tested were using Java versions from
December 2008; 18% were missing Adobe product updates from 2010; 8% were missing
Microsoft patches from 2009, 2010 and 2011 and approximately 60% of the target computers
were missing QuickTime patches.

Therefore, software that was part of the installed OCIO desktop standard software inventory on
the Smithsonian’s computer systems was not consistently being patched for security issues on
a timely basis.

In addition, there was several 3rd party products (Firefox, iTunes, Safari, and RealPlayer) which
appear on less than 10% of the tested sample, that were missing patches more than 6 months
old.

One of the most frequent reasons hackers are able to gain access to systems is when they are
not patched with security updates. The Smithsonian has established patch management
policies and procedures through its Technical Standards and Guidelines and Technical Notes.


9
    SI Technical Note, IT-930-TN29, IT Security Plans of Actions and Milestones

                                                  9

                           REPORT ON FISCAL YEAR 2011

                 Independent Evaluation of the Smithsonian Institution’s 

                             Information Security Program 



SI Technical Note, IT-960-TN02 Patch and Update Management of Desktop Computers states
that it “establishes the procedures for evaluating and implementing patches and service packs
from Microsoft and updates from Apple for desktop computers.” This technical note further
states that “Timely implementation of vendor fixes is critical to ensuring that the Smithsonian
computers, servers and desktop workstations remain secure and function optimally.”

SI Technical Standards and Guidelines, IT-930-02, Security Controls Manual, 3.17.2 Flaw
Remediation (SI-2), states that:

       IT-960-TN02, Patch and Service Pack Implementation for Desktop PCs outlines
       requirements for applying patches. The system administrator will schedule the
       application of the patch with the Change Control Board and adhere to the standard user
       notification requirements outlined in the Technical Note.

       IT-930-TN08, Implementing Vendor Software Patches/Fixes details the procedures on
       implementing vendor software patches and fixes on desktop systems.

       NIST has a vulnerability database available at http://nvd.nist.gov where it is possible to
       check on known software product vulnerabilities.

Moderate and High Impact systems must meet the following requirements:

       The organization employs automated systems to determine the status of flaw
       remediation.

The conditions noted above can result in server and desktop workstations being unprotected
against actively exploited vulnerabilities. These vulnerabilities expose the Smithsonian’s
computer assets, operating systems, applications and data to unauthorized access, data loss,
data manipulation and a reduction of system availability.

Recommendations:

To strengthen patch management and flaw remediation controls, we recommend that the CIO:

   8. 	Improve the current server and standard desktop workstation procedures to identify
       any required operating system (OS) or application security patches.

   9. 	 Test and provide patch updates for the Smithsonian’s standard desktop workstation
        software inventory within 30 days for vendor identified critical security patches and 60
        days for vendor identified high risk security patches following the release of the patch.




                                               10 

                                              REPORT ON FISCAL YEAR 2011

                                    Independent Evaluation of the Smithsonian Institution’s 

                                                Information Security Program 


STATUS OF PRIOR YEARS FINDINGS AND RECOMMENDATIONS

The following table represents the current status of the prior years’ information security system and program recommendations, 12
recommendations remain open and 17 recommendations were closed in FY 2011:

             Report                Date Issued                               Recommendation                                 Current Status
     FY 2006 FISMA Reviews
The Smithsonian Institution's                                                                                                Target date
                                                 Establish procedures to ensure existing policies requiring the use of
Information Security Program        4/20/2007                                                                                 revised to
                                                 standard baselines are implemented and enforced.
A-06-05                                                                                                                       9/15/2012
Smithsonian Institution Network                  Enforce separation of duty controls noted in the SINet system security
(SINet) Audit                       8/10/2007    plan and specifically segregate system administration roles from              Closed
A-06-07                                          security roles.
    FY 2007 FISMA Reviews
                                                 Identify, document, and implement segregation of duty controls for
Human Resources Management
                                                 sensitive administrative and system support functions. Management
System                              9/19/2007                                                                                  Closed
                                                 should document in the system security plan those activities that need
A-07-06
                                                 to be segregated.
                                                 Enforce Institution policy and procedures requiring the weekly review of
                                                 logs and monthly submission of appropriately detailed management              Closed
                                                 reports to OCIO.
                                                 Document final baselines for the HRMS operating system and database
                                                 after determining what Institution-wide baselines will be adopted and
                                                                                                                               Closed
                                                 specifically note where suggested security settings have not been
                                                 implemented for valid business purposes.
                                                 Implement baselines for the various components of the system including
ID and Badging, C-CURE Central,
                                                 all databases and operating systems. In addition, where suggested
and Central Monitoring Systems      3/31/2008                                                                                  Closed
                                                 security settings cannot be implemented for valid business purposes,
A-07-07
                                                 management should document their deviations from the baseline.
                                                 Ensure that all major and minor systems are addressed in system
                                                 security plans in accordance with OMB and NIST guidelines. OCIO
The Smithsonian Institution's                    should ensure controls over major and minor systems are identified,         Target date
Information Security Program        3/31/2008    documented, and implemented based on their impact on the                     revised to
A-07-08                                          Smithsonian or sensitivity of data they process or store.                    9/15/2012



                                                                 11 

                                             REPORT ON FISCAL YEAR 2011

                                   Independent Evaluation of the Smithsonian Institution’s 

                                               Information Security Program 


             Report                Date Issued                              Recommendation                                  Current Status
    FY 2008 FISMA Reviews
Smithsonian Astrophysical
                                                 OCIO needs to develop, document, and implement controls to ensure           Target date
Observatory Scientific Computing
                                   9/30/2008     Smithsonian policy is updated timely to include new IT requirements          revised to
Infrastructure
                                                 and disseminated to system sponsors and contractors.                         7/15/2012
A-08-03
                                                 Ensure system sponsors implement NIST, OMB, and Smithsonian
                                                                                                                               Closed
                                                 requirements within required timeframes.
                                                 Logically segregate public-facing SAO Web sites from internal areas by
                                                                                                                               Closed
                                                 transferring or migrating these sites inside a DMZ.
                                                 Comply with IT-960-TN16 and maintain individual server configuration
                                                 documents for each server by system owner. In addition, fully document
                                                 all instances where suggested security configurations are not followed,
                                                                                                                               Closed
                                                 due to technical limitations or valid business reasons, and this
                                                 documentation should reflect management acceptance of associated
                                                 risks.
                                                 Comply with Smithsonian policy and enforce a 15-minute lock on all
                                                 Solaris and Linux machines after exceeding the prescribed number of           Closed
                                                 consecutive invalid access attempts.
                                                 Implement session lock controls for Linux- and Solaris-based machines
                                                                                                                               Closed
                                                 that automatically activate after no more than 20 minutes of inactivity.
                                                 Research tools that will enable automatic review of account activity for
                                                 Solaris NIS. If such tools cannot be identified, management should
                                                 document this deficiency in the risk assessment and system security
                                                                                                                               Closed
                                                 plan. In addition, if automated controls cannot be implemented, identify
                                                 compensating controls that will reduce risks associated with not having
                                                 automated account management controls.
                                                 Adhere to Smithsonian policies and provide security awareness training
                                                                                                                               Closed
                                                 to all staff within 30 days of hire.
                                                 Ensure that all individuals who have direct access to Institution
NMNH EMu Application                             information system resources, including those without SINet accounts,
                                   10/7/2008                                                                                   Closed
A-08-04                                          sign the required rules of behavior forms and complete security
                                                 awareness training.



                                                                 12 

                                               REPORT ON FISCAL YEAR 2011

                                     Independent Evaluation of the Smithsonian Institution’s 

                                                 Information Security Program 


              Report                 Date Issued                               Recommendation                                  Current Status
                                                   Enforce Institution policy and procedures requiring submission of
                                                   appropriately detailed management reports to OCIO based on the
                                                   frequency described within Appendix E of Technical Standards &                 Closed
                                                   Guidelines IT-930-02, IT Security Controls Manual, either monthly,
                                                   quarterly or annually, depending on the reportable item.
The Smithsonian Institution's                      Ensure that general security awareness training is available and enforce
Information Security Program         3/17/2009     the requirement that all employees, contractors, volunteers, visiting          Closed
A-08-09                                            scholars, and interns complete the training.
                                                   Ensure the implementation of FDCC requirements across all domains at
                                                                                                                                  Closed
                                                   the Smithsonian and document any deviations.
                                                                                                                                Target date
                                                   Identify all of the Smithsonian’s public websites that use e-
                                                                                                                                 revised to
                                                   authentication.
                                                                                                                                 9/15/2012
                                                                                                                                Target date
                                                   Complete risk assessments for each public website that uses e-
                                                                                                                                 revised to
                                                   authentication, in accordance with OMB guidance.
                                                                                                                                 9/15/2012
                                                   Approve an Institution-wide initiative to develop, design, and implement
                                                   a mechanism to track and monitor all employees, contractors,
                                                   volunteers, visiting scholars, and interns, for compliance with general        Closed
                                                   security awareness training, regardless of access to an Institution
                                                   computer or network.
FY 2009 FISMA Reviews
Fiscal Year 2009 Independent                       Re-assess the security categorization for major systems currently
FISMA Audit Of The Smithsonian                     categorized as low-impact systems, based on the type of PII stored in
                                                                                                                                Target date
Institution’s Information Security   6/30/2010     the system. The systems should either be re-classified as moderate or
                                                                                                                                10/15/2012
Program                                            the security categorization revised to include adequate justification for
A-09-11                                            classifying the system as low.
                                                   To further strengthen the interconnections process, ensure that all          Target date
                                                   interconnections have signed agreements prior to execution.                   9/30/2012

FY 2010 FISMA Reviews

FISMA Evaluation Report                            Update SD 920 and other related documents to provide clear criteria for      Target date
                                     3/15/2011
A-10-01                                            designating systems for inclusion in the Smithsonian’s FISMA inventory.       9/15/2012




                                                                    13 

                   REPORT ON FISCAL YEAR 2011

         Independent Evaluation of the Smithsonian Institution’s 

                     Information Security Program 


Report   Date Issued                                 Recommendation                                    Current Status
                       Engage personnel with expertise and knowledge of Smithsonian                     Target date
                       information systems and processes including representatives from the              9/15/2012
                       Offices of the Undersecretaries and the Chief Information Officer, Unit
                       and Museum Directors, and the Smithsonian Privacy Officer in
                       reviewing the updates to the policies and documents and in the resulting
                       modifications to the Smithsonian’s FISMA inventory.
                       Centrally document as part of its on-going risk management process the           Target date
                       decisions by the Undersecretaries and the Unit managers to include or exclude     9/15/2012
                       systems in the FISMA inventory.
                       Update TSG 930-02 Security Controls Manual (PM-5) to reflect the approved        Target date
                       management process.                                                               9/15/2012
                       We recommend that SI implement controls to ensure that all SI-owned              Target date
                       laptops/mobile devices that may be used to store sensitive information are        9/15/2012
                       secured with an appropriate encryption technology.




                                         14 

                                                  REPORT ON FISCAL YEAR 2011

                                        Independent Evaluation of the Smithsonian Institution’s 

                                                    Information Security Program 



The following table represents the current status of the prior years’ privacy program recommendations, eight (8) open recommendations and one
(1) closed recommendation in FY 2011:

            Report                Date Issued                                 Recommendation                                  Current Status
   Privacy Program Review
                                                Develop, document, and implement privacy policies and procedures to
                                                support an overall privacy program that adequately addresses privacy-
Smithsonian Institution Privacy                                                                                             Target date revised
                                                related risks. Additionally, privacy policies and procedures for websites
Program                           5/29/2009                                                                                   to March 2012
                                                should include practices such as conducting risk assessments, requiring a
A-08-08                                                                                                                          Delayed
                                                link to Smithsonian privacy policy, and complying with Smithsonian and
                                                federal website privacy requirements.
                                                Develop and implement an annual privacy-training program and require all
                                                                                                                                 Closed
                                                Smithsonian employees and contractors to complete the training.
                                                Develop, document, and implement a process for identifying and                 Target date
                                                documenting PII used by the Smithsonian. This process should result in a        3/15/2012
                                                detailed list describing PII by origin, use, format, and location.               Delayed
                                                                                                                            Target date revised
                                                Establish and implement requirements to reduce holdings of PII to the
                                                                                                                               to March 2012
                                                extent practicable.
                                                                                                                                   Delayed
                                                Develop, document, and implement procedures for conducting PIAs.                 Target date
                                                Procedures for completing PIAs should address relevant Smithsonian                3/15/2012
                                                requirements.                                                                      Delayed
                                                                                                                            Target date revised
                                                Post completed PIAs on the Smithsonian’s public website.                      to August 2011
                                                                                                                                   Delayed
                                                                                                                            Target date revised
                                                Develop, document, and implement policies and procedures for
                                                                                                                               to March 2012
                                                safeguarding documents containing PII.
                                                                                                                                   Delayed




                                                                       15 

                        REPORT ON FISCAL YEAR 2011

              Independent Evaluation of the Smithsonian Institution’s 

                          Information Security Program 


Report   Date Issued                                Recommendation                                    Current Status

                       Develop and implement procedures to enforce compliance with new and          Target date revised
                       existing privacy policies related to the protection of sensitive documents     to March 2012.
                       containing PII.                                                                   Delayed

                       Ensure that privacy links for all Smithsonian web site entries have          Target date revised
                       consistent content and style to ensure compliance with the                   to December 2011.
                       Smithsonian’s published web privacy policy and procedures.                        Delayed




                                             16 

                      REPORT ON FISCAL YEAR 2011

            Independent Evaluation of the Smithsonian Institution’s 

                        Information Security Program 



MANAGEMENT RESPONSE




                                      17 

                       REPORT ON FISCAL YEAR 2011

             Independent Evaluation of the Smithsonian Institution’s 

                         Information Security Program 


MANAGEMENT RESPONSE (CONTINUED)





                                       18 

                       REPORT ON FISCAL YEAR 2011

             Independent Evaluation of the Smithsonian Institution’s 

                         Information Security Program 


MANAGEMENT RESPONSE (CONTINUED)





                                       19 

                       REPORT ON FISCAL YEAR 2011

             Independent Evaluation of the Smithsonian Institution’s 

                         Information Security Program 



MANAGEMENT RESPONSE (CONTINUED)




                                       20 

